HHS/OIG-Audit--"Audit of Controls for Each Phase of the Overpayment RecoveryProcess in the Aid to Families with Dependent Children Program, (A-01-92-02506)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Controls for Each Phase of the Overpayment Recovery Process in the Aid to Families with Dependent Children
Program," (A-01-92-02506)
November 10, 1992
Complete
Text of Report is available in PDF format (2.13 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our review of the Administration for Children and Families's (ACF) policies
and procedures as promulgated through regulations set forth in Title 45 Code of Federal Regulations (CFR) uniform procedures
for each phase of the overpayment recovery process. We found that ACF's policies and procedures are too general and do
not provide State and local agencies with specific uniform procedures to use for each phase of the overpayment recovery
process. According to its own quality control data, the ACF estimates that in 1990 State and local agencies made over $1
billion in Aid to Families with Dependent Children program overpayments.